                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
Follow-up on the Department of Energy's
Acquisition and Maintenance of Software
Licenses




 DOE/IG-0920                         September 2014
                                  Department of Energy
                                    Washington, DC 20585

                                       September 30, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Follow-up on the Department of
                         Energy's Acquisition and Maintenance of Software Licenses"

BACKGROUND

The Department of Energy spends at least $1.4 billion per year on information technology to
support its mission of ensuring the Nation's security and prosperity by addressing energy,
environmental and nuclear challenges through science and technology solutions. To accomplish
this mission, the Department's Federal employees and facility contractors rely on commercial-
off-the-shelf software for a multitude of services, including office automation, document
management, virtualization and engineering analysis. Given the size of the Department's
investment, management of information technology, including software licenses, plays an
important role in achieving the Department's mission.

In January 2006, an Office of Inspector General report on the Management of the Department's
Desktop Computer Software Enterprise License Agreements (DOE/IG-0718) found that the
Department had not adequately managed the acquisition and maintenance of software licenses.
The report noted that the Department spent about $4.1 million more than necessary over a 5-year
period to acquire and maintain desktop software. In some cases, agreements and contracts
entered into by Department organizations were as much as 300 percent more than those available
through the Department's enterprise agreements. The review also identified that the Department
lacked enterprise-wide agreements for common products such as security and antivirus software.
Executive Order 13589, Promoting Efficient Spending, requires agencies to assess current usage
to ensure that they are not paying for unused or underutilized software. In addition, the Office of
Management and Budget recently issued guidance to promote sound strategic sourcing practices
across the Federal government. We initiated this follow-up audit to determine whether the
Department effectively managed the acquisition and maintenance of its software licenses.

RESULTS OF AUDIT

Although the Department had made progress in addressing our prior recommendations, we found
that it had not adequately managed the acquisition and maintenance of computer software
licenses. We determined that programs and sites routinely paid more than necessary when
acquiring software licenses and generally had not maintained an inventory of software to assist
with management of licenses. In particular:
   •   Our review of software purchase data revealed that for the limited range of software
       products we were able to evaluate, programs and sites spent approximately $600,000
       more than necessary during a 3-year period. For example, we identified at least 52
       instances where pricing for common products such as office automation, document
       management and engineering software varied widely. We also identified 11 instances at
       Sandia National Laboratories where employees used a purchase card to acquire software
       licenses at higher prices than those established for the identical product in the
       organization's software management system.

   •   The price per license paid by the Department was often greater than established
       government-wide acquisition contract prices available to all Federal agencies. For
       example, the Department paid $250 more for document management software than the
       price available using a National Aeronautics and Space Administration contract vehicle.
       We also identified many instances where the Department's cost per software license was
       more than the price offered by the General Services Administration. In one instance, the
       Department paid $463 more than necessary for a version of document management
       software.

   •   While some sites had partially implemented software management systems since our
       prior report, none of the Federal and contractor sites visited were able to provide a
       complete inventory of software licenses. Specifically, although management noted in
       response to our prior report that it would develop policy and guidance related to
       maintaining an inventory of software licenses, the Office of the Chief Information Officer
       was unable to provide a comprehensive inventory for all software licenses. Likewise,
       Sandia National Laboratories could not account for all software licenses acquired using
       purchase cards. As noted by Federal guidance and industry best practices,
       implementation of a software asset management system can help organizations inventory
       and assess the state of installed software across systems. Our findings are consistent with
       a recent Government Accountability Office report on Federal Software Licenses – Better
       Management Needed to Achieve Significant Savings Government-Wide (GAO-14-413,
       May 2014), which identified that the Department had not adequately tracked software
       licenses.

The issues identified occurred, in part, because the Department had not developed and
implemented a fully effective strategy for acquiring and managing software licenses.
Specifically, contrary to a 2011 Office of Management and Budget memorandum directing
agencies to pool purchasing power to drive down costs and improve service, the Department
continued to utilize a fragmented approach without a formal process for ensuring that software
purchases were coordinated between Headquarters and/or field sites. Our review found that the
National Nuclear Security Administration, several of the Department's National Laboratories and
the Office of the Chief Information Officer were each independently working towards or had
negotiated their own enterprise-wide agreements. In addition, four sites reviewed had not
effectively implemented systems to account for all software licenses. For example, Argonne
National Laboratory had not fully deployed its asset management tool on every computer on the
network and had not implemented capabilities to integrate it with the site's procurement system,
which could have allowed it to update software license information at the time of purchase. The

                                                2
Office of the Chief Information Officer indicated that the decentralized structure of the
Department contributed to the weaknesses identified. While we agree, we believe that more
effective coordination among programs and sites is a critical step in the process to help overcome
this obstacle.

The Department had taken a number of actions to improve the management and acquisition of
software licenses since our prior report was issued. In particular, officials recently updated the
DOE Acquisition Guide to emphasize the importance of strategic sourcing to reduce costs.
Furthermore, Office of the Chief Information Officer officials told us that the Enterprise-Wide
Agreement Integrated Project Team established numerous enterprise agreements for commonly
used software that resulted in significant savings. Four sites reviewed also either had
implemented or were in the process of implementing site-specific systems with the capability to
manage and/or procure software licenses from a central location. In addition, Lawrence
Berkeley National Laboratory was analyzing use of office automation software to determine
whether it could reduce costs while still meeting user needs.

While these were positive actions, more work remains to ensure effective software asset
management. As such, we have made recommendations to help the Department effectively
manage the acquisition and maintenance of software licenses and realize potential savings of up
to approximately $600,000 over the next 3 years at just the locations reviewed. We believe that
actual unnecessary expenditures and related potential savings may be significantly higher than
our calculations demonstrate due to the lack of information available at sites regarding software
purchases. In addition, because our review was limited to 10 sites, the results only represent a
portion of the Department's software purchases to support its approximately 115,000 Federal and
contractor employees across the complex.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective actions
had been taken or were planned to address the issues identified. While management's comments
indicated that many corrective actions had been completed to address our recommendations, the
findings in our report indicated that additional work is necessary. Management's comments and
our responses are summarized in the body of the report. Management's formal comments are
included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary for Nuclear Security
    Deputy Under Secretary for Management and Performance
    Deputy Under Secretary for Science and Energy
    Chief of Staff




                                                 3
AUDIT REPORT ON FOLLOW-UP ON THE DEPARTMENT OF
ENERGY'S ACQUISITION AND MAINTENANCE OF
SOFTWARE LICENSES


TABLE OF CONTENTS

Audit Report

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................6

Management Response and Auditor Comments ..............................................................................7

Appendices

     1. Objective, Scope and Methodology .....................................................................................9

     2. Related Reports ..................................................................................................................11

     3. Management Comments ....................................................................................................13
FOLLOW-UP ON THE DEPARTMENT OF ENERGY'S
ACQUISITION AND MAINTENANCE OF SOFTWARE
LICENSES

DETAILS OF FINDING
The Department of Energy's (Department) Federal and contractor locations had not adequately
managed the acquisition and maintenance of computer software licenses. Specifically, the
Department paid more than necessary to acquire software licenses and did not always take
advantage of existing enterprise software agreements. In addition, Department programs and
sites had not adequately maintained an inventory of all software, a key control necessary to help
manage software expenses. In addition to obvious financial benefits associated with enhanced
management of software licenses, an inventory of software licenses would allow the Department
to better protect its information technology resources from cybersecurity compromises by
helping to identify those software applications that may require regular security updates. Our
software inventory findings are consistent with a recent Government Accountability Office
report on Federal Software Licenses – Better Management Needed to Achieve Significant
Savings Government-Wide (GAO-14-413, May 2014), which noted that the Department had not
adequately tracked software licenses.

Software License Acquisition

We determined that the Department spent approximately $600,000 more than necessary during a
3-year period to acquire software licenses at the locations we reviewed. For common products
such as office automation, document management and engineering software, we identified at
least 52 instances where pricing for available products varied by more than $50 per license. At
Headquarters, one program office paid $1,106 for document management software even though
another program office paid only $595 for the same product, a difference of $511 (46 percent).
Similarly, Los Alamos National Laboratory paid $93 (15 percent) more than Lawrence Berkeley
National Laboratory for the same document management software. Our review also identified a
price difference of approximately $2,700 per license for popular engineering software at two
sites.

We identified numerous instances at Sandia National Laboratories where users had utilized a
purchase card to acquire software licenses at higher prices than those established within the
organization's software management system. For example, we identified at least 10 instances of
purchase card users paying more than necessary to acquire office automation software –
sometimes paying up to $164 more per license than the price available through the software
management system. In another instance, the price paid for engineering software using a
purchase card exceeded the price available in the software management system.

In addition to varying prices paid when compared across and within Department locations, we
identified numerous instances where the price paid per software license to the Department were
greater than the established government-wide acquisition contract prices available to all Federal
agencies. For example, the Department paid $250 (29 percent) more per license for one product
than the cost available through a government-wide acquisition contract established by the
National Aeronautics and Space Administration and available for use by all Federal agencies.



Details of Finding                                                                        Page 1
We also identified many instances where the Department paid more than the price available
through the General Services Administration, including one example where it paid $463 more
than necessary for a single version of document management software.

While we attempted to identify all excessive costs, our analysis was limited due to a lack of
information regarding software purchases at each of the locations reviewed. 1 For example, at
one location, we found that 10 percent of the sampled software purchases contained errors
related to the prices identified in the site's purchase records. Therefore, we excluded those items
from our estimated cost savings. The table below details potential excessive expenditures over a
3-year period for certain software products based on data we were able to obtain.

                                                                  FISCAL YEAR
               PRODUCT                               2010            2011                         2012
     Document Management Software                     $99,634          $98,510                     $116,799
         Office Automation Software                   $53,023         $139,348                      $60,864
              Virtualization Software                   $3,882          $3,859                       $6,945
                Engineering Software                     $920           $1,812                         $650
            Screen Capture Software                     $8,130          $2,520                       $2,823
                              Subtotal               $165,589         $246,049                     $188,081
                                                  TOTAL EXCESSIVE EXPEDITURES                      $599,719

Software License Inventory

The Department had not maintained an inventory of software licenses to ensure the software
management process was cost-effective and securely managed. While some sites had
implemented software management systems, none of the Federal and contractor locations visited
were able to provide a complete inventory of software licenses. For instance, we found:

     •   Although the Department implemented a common operating environment for the
         majority of program and staff offices at Headquarters, the Office of the Chief
         Information Officer (OCIO) was unable to provide a comprehensive inventory of all
         software licenses. In fact, the Department's response to a recent Government
         Accountability Office report indicated that the OCIO collected software information on
         less than one-half of Federal users.

     •   Even though Sandia National Laboratories implemented the Software Asset
         Management System to track software and facilitate the procurement of licenses,
         officials were unable to provide a complete inventory of software. Specifically, during
         our review, a Laboratory official informed us that not all software acquired using a
         purchase card was registered in the Software Asset Management System. Failure of the
         site to account for all software purchases could prevent officials from ensuring
         compliance with software agreements and identifying redundant purchases or other cost-
         savings opportunities.
1
 The data provided by the sites in some cases lacked the necessary product description information and thus did not
allow for a comprehensive analysis of all software products.


Details of Finding                                                                                        Page 2
As noted by the National Institute of Standards and Technology, implementation of a software
asset management system can help an organization inventory its software and provide accurate,
timely information to assess the current state of installed software across its information
technology systems. Furthermore, accurate inventory records can assist a program and site in
determining whether it is fully utilizing procured licenses and/or whether it is compliant with
vendor license agreements.

Software Acquisition and Inventory Methods

The issues identified occurred, in part, because the Department had not developed and
implemented a fully effective strategy for acquiring and maintaining an inventory of software
licenses. Specifically, contrary to Federal guidance, the Department continued to utilize a
fragmented approach to software acquisition and had not ensured that purchases were pooled
among all Department organizations, when appropriate. In addition, sites reviewed had not
implemented effective processes to account for all software licenses.

                          Coordination of Software Acquisitions

The Department paid more than necessary to procure software licenses because program and site
officials had not ensured that purchases were appropriately coordinated to obtain the lowest
available price. In addition, officials had not utilized existing government-wide acquisition
contracts available for use by all agencies, when appropriate.

We found that attempts to improve collaborative efforts resulted in the establishment of multiple,
independent working groups that were often not adequately coordinated. As noted in a 2011
Office of Management and Budget memorandum, agency Chief Information Officers were
directed to pool agency purchasing power to drive down costs and improve service for
commodity information technology. A primary goal of the Department's Information
Technology Modernization Strategy is to provide Department governance, policy and oversight
processes to ensure secure, efficient and cost-effective use of information technology resources.
However, we noted that the National Nuclear Security Administration (NNSA) Supply Chain
Management Center, the Department's Integrated Contractor Purchasing Team and the OCIO's
Enterprise-Wide Agreements Integrated Project Team were each independently working towards
or had negotiated their own enterprise-wide agreements rather than using aggregated bulk
purchase agreements to minimize costs.

In addition, our analysis found that the Integrated Project Team was not always collaborative
because various programs and sites were not actively participating. While an OCIO official
noted that the Integrated Project Team was supposed to hold quarterly meetings, we found no
meetings had been conducted since October 2012. Furthermore, various officials we spoke with
at Los Alamos National Laboratory – one of the largest management and operating contractors
within the Department – were unaware of the Integrated Project Team until we informed them of
the working group's existence and had not participated in the team's activities. One of the
objectives to achieve the Information Technology Modernization Strategy is to reduce the
number of product and service procurement vehicles, allowing the Department to leverage its
collective buying power to simplify and reduce the cost and complexity of acquisitions. During



Details of Finding                                                                        Page 3
our review, however, several site individuals indicated that while having a central source of
information would benefit them in the procurement of software products, such a mechanism did
not exist. With better coordination, the Department could work to establish a central source of
information to identify the best available contracts or agreements and potentially reduce
acquisition costs and allow Federal and contractor employees to better utilize limited resources.

                               Software Inventory Processes

Inventory management weaknesses occurred because the sites reviewed had not effectively
implemented processes to track all software licenses. Although management noted in response
to our prior report that it would develop and implement policy and guidance to support a
software license inventory process, we found that Department Order 200.1A, Information
Technology Management, did not contain a well-defined process that outlined how the
Department should conduct its software license inventory process. As such, sites continued to
encounter problems with software inventories. For instance, Sandia National Laboratories did
not require licenses procured by alternative methods such as purchase cards to be registered in
the Software Asset Management System. Rather, it was the user's responsibility to manually add
software purchases to the system. However, based on discussions with a site official and review
of procurement data, we found that two types of engineering software products costing $7
million over a 3-year period may not have been included in the Software Asset Management
System by the users. Furthermore, Lawrence Berkeley National Laboratory managed its
software licenses in a decentralized manner at the project, program or division level which
limited the site's ability to adequately track software licenses.

Our findings related to software inventory management are consistent with the Government
Accountability Office's recent report, which identified that Department-wide software inventory
management policies were not developed that encompassed best practices to include centralized
software license management, tracking and maintaining of a comprehensive inventory using
automated tools, and use of software license data analysis to make cost-effective decisions. We
believe that had the Department fully understood what types and quantities of software it
acquired, officials would have been in a better position to negotiate lower prices with software
vendors.

Opportunities for Improvement

Without improvements in the procurement of software licenses, the Department could potentially
pay up to approximately $600,000 more than necessary over the next 3 years at just the locations
reviewed. Enhancements to the software acquisition process, including centralizing purchases
and the use of enterprise agreements when appropriate, could allow the Department to maximize
and leverage its purchasing power as a large Federal entity. We believe that our estimated
savings are conservative because our review only focused on a sample of the Department's
programs and sites and included only certain types of software licenses used to support the
Department's approximately 115,000 Federal and contractor employees.

In addition, absent a complete and accurate software inventory, the Department may be unable to
adequately budget for future software costs and will continue to run a higher than necessary risk



Details of Finding                                                                        Page 4
of overbuying software licenses. A complete and accurate inventory would also allow the
Department to better realize economies of scale by streamlining negotiations for new software
agreements. For instance, without a complete inventory of software, the Department may be
unable to perform the necessary analysis to determine whether certain software products are
eligible for an enterprise agreement. Furthermore, proper knowledge or control of the software
deployed at an organization can help cybersecurity officials identify vulnerable software and
defend against ongoing threats of compromise.




Details of Finding                                                                      Page 5
RECOMMENDATIONS
To address the issues identified in this report, we recommend that the Under Secretary for
Nuclear Security, the Deputy Under Secretary for Science and Energy and the Deputy Under
Secretary for Management and Performance, in coordination with the Department and National
Nuclear Security Administration Chief Information Officers and the Director, Office of
Management:

   1. Develop and implement a process to ensure that software purchases are coordinated
      among Federal and contractor entities to the extent practical, including periodic reviews
      of software purchases across the Department to facilitate the negotiation and use of
      enterprise agreements.

   2. Ensure that all software licenses are appropriately tracked using asset management
      systems, including registering and/or monitoring license acquisition and usage.




Recommendations                                                                          Page 6
MANAGEMENT RESPONSE
Management concurred with the report's recommendations and indicated that corrective actions
had been taken or were planned to address the issues identified. Management agreed that
enhancements to the software acquisition process could allow the Department to maximize and
leverage its purchasing power as a large Federal entity. Management commented that the
Enterprise-wide Strategic Sourcing Program was established to create a comprehensive approach
to acquisitions that are strategically driven to ensure maximum value for every dollar spent.
Although the program did not coordinate procurement activities across the Department,
management noted that it facilitated a strategic approach through guidance and direction.
Management indicated that the process to build an effective and efficient information technology
program was complicated by the organizational structure of the Department. For instance,
management asserted that the use of management and operating contracts impacted coordination
efforts and that it cannot dictate the software and hardware used by management and operating
contractors. The Office of Management indicated that the fragmented approach identified in our
report also occurred with other acquisition activities and noted that it was working towards the
development of a policy that would emphasize the use of existing strategic procurement vehicles
as part of the procurement planning process.

In response to recommendation one, the OCIO commented that it would continue to encourage
consolidation of software package acquisition and the use of volume purchasing arrangements
through enterprise-wide agreements and the application of best practices in software
implementation. The Office of Science commented that it collaborated with other Department
entities on certain software agreements and would collaborate further if deemed practical and
beneficial. NNSA management indicated that it will follow the Department's lead and encourage
consolidation and use of volume purchasing arrangements. NNSA also commented that it would
continue to utilize the Kansas City Plant's Supply Chain Management Center as part of its efforts
to mature enterprise-wide processes.

In response to our second recommendation, the OCIO acknowledged that the Department did not
have a complete inventory of software licenses, but indicated that it maintained an inventory that
included close to 45 percent of Federal users and direct support contractors. In addition, the
Office of Science commented that it already tracked all software licenses and considered the
recommendation closed. NNSA management indicated that all management and operating
contractors must manage software based on contracted licenses and noted that it was working to
improve situational awareness of local software inventories.

AUDITOR COMMENTS
Management's comments are generally responsive to our report and recommendations. For
instance, the Office of Management's commitment to develop a policy that emphasizes the use of
strategic procurements should, if implemented across the Department, help to remediate some of
the issues identified in our report. However, while management considered corrective actions
completed related to our recommendations, we believe that additional work is necessary. As
noted in our report, coordination of software purchases both across and within locations can be
improved. For example, our report highlighted numerous examples of programs and sites that


Management Response and Auditor Comments                                                  Page 7
paid varying prices for the same software. In addition, we identified differing prices paid for the
same software at the same site. Furthermore, additional work is necessary to ensure that all
software licenses are appropriately tracked using asset management systems. While the Office
of Science commented that it was already tracking software licenses and considered our
recommendation closed, we found that several Office of Science locations encountered
weaknesses related to software management. Notably, NNSA's commitment to improve
awareness of software inventories at each of its locations is encouraging.




Management Response and Auditor Comments                                                   Page 8
                                                                           APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

To determine whether the Department of Energy (Department) effectively managed the
acquisition and maintenance of its software licenses.

Scope

The audit was performed between December 2012 and September 2014, at Department
Headquarters in Washington, DC, and Germantown, Maryland; Los Alamos National
Laboratory, Los Alamos, New Mexico; Sandia National Laboratories, Albuquerque, New
Mexico; Argonne National Laboratory and Chicago Office, Argonne, Illinois; Brookhaven
National Laboratory, Upton, New York; and Lawrence Berkeley National Laboratory, Berkeley,
California. We also obtained information from Pacific Northwest National Laboratory,
Richland, Washington; Oak Ridge National Laboratory, Oak Ridge, Tennessee; and Savannah
River Site, Aiken, South Carolina. The audit was conducted under Office of Inspector General
Project Number A13TG005.

Methodology

To accomplish our audit objective, we judgmentally selected a sample of 10 Department sites.
This selection was based primarily on information technology expenditures and follow-up on
prior report findings. Because a judgmental sample of Department sites was used, the results
were limited to the sites or locations selected. Additionally, we:

   •   Reviewed applicable laws and regulations pertaining to acquisition and maintenance of
       software licenses;

   •   Reviewed applicable standards and guidance issued by the Office of Management and
       Budget;

   •   Reviewed prior reports issued by the Office of Inspector General and the Government
       Accountability Office;

   •   Held discussions with program officials and personnel from Department Headquarters
       and field sites reviewed, including representatives from the Offices of the Chief
       Information Officer, Environmental Management, Science, Fossil Energy, as well as the
       National Nuclear Security Administration;

   •   Reviewed numerous documents related to the Department's management and acquisition
       of software licenses; and

   •   Used data analysis software to evaluate and compare software license purchases by
       programs and field sites.



Objective, Scope and Methodology                                                       Page 9
                                                                              APPENDIX 1
We calculated software acquisition savings by comparing the historical spending patterns of
information technology software purchase data for a 3-year period (Fiscal Years 2010 to 2012) at
the sites reviewed. We compared the prices paid by the sites for certain common software
products to the lowest prices available through other existing agreements to determine potential
savings. Our analysis only accounted for software purchases for which detailed information such
as product and version could be determined. In addition, the analysis excluded all software
maintenance and/or upgrade purchases.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Accordingly, we assessed
significant internal controls and the Department's implementation of the GPRA Modernization
Act of 2010. Because our review was limited, it would not have necessarily disclosed all internal
control deficiencies that may have existed at the time of our evaluation. We relied on computer-
processed data to satisfy our objectives and tested the completeness and accuracy of such data by
comparing a judgmental sample of the information provided by programs and field sites to
vendor invoices. Because a judgmental sample of purchase data was selected, results and overall
conclusions are limited to the items tested and cannot be projected to the entire population. We
determined that the data provided was reasonably reliable for the purposes of our audit objective.
In one instance, we found that 5 of 50 (10 percent) vendor invoices for a site contained incorrect
data. Therefore, we subtracted 10 percent from the estimated savings for that site to compensate
for the incorrect data.

Management waived an exit conference.




Objective, Scope and Methodology                                                        Page 10
                                                                            APPENDIX 2

                                 RELATED REPORTS
Office of Inspector General

   •   Special Report on Management Challenges at the Department of Energy – Fiscal Year
       2014 (DOE/IG-0899, November 2013). The Department of Energy (Department)
       receives an annual appropriation approaching $25 billion, employs more than 115,000
       Federal and contractor personnel, and manages assets valued at $180 billion. With its
       critical important mission in mind, the Office of Inspector General identified what it
       considers to be the most significant management challenges facing the Department each
       year. One of the management challenges identified in the Fiscal Year 2014 report
       pertained to Operational Efficiency and Cost Savings. We concluded that the current
       economic climate and associated Federal budgetary concerns dictated that finding ways
       to improve efficiency and reduce the cost of agency operations was the preeminent
       management challenge facing the Department. Recent Department budget constraints,
       along with the implementation of sequestration, have exacerbated our concerns.

   •   Audit Report on Management of the Department's Desktop Computer Software
       Enterprise License Agreements (DOE/IG-0718, January 2006). The Department had not
       adequately managed the acquisition and maintenance of desktop computer software
       licenses. Instances were noted where software was acquired through established
       agreements or contracts at prices as much as 300 percent higher than those available
       through Department-level agreements. Furthermore, despite the potential for significant
       savings, enterprise agreements for common products such as security and antivirus
       software had not been established. In addition, it was noted that various sites and
       organizations paid for annual maintenance fees for 14,000 encryption software licenses
       that were never used. These problems occurred because the Department had not
       established a complex-wide desktop software acquisition and maintenance strategy.
       Also, the Department had not developed complex-wide standards for desktop software,
       implemented a common method for acquiring software, and did not require organizations
       to actively manage their inventory of existing licenses.

Government Accountability Office

   •   Report on FEDERAL SOFTWARE LICENSES: Better Management Needed to Achieve
       Significant Savings Government-Wide (GAO-14-413, May 2014). The Office of
       Management and Budget and the vast majority of agencies reviewed did not have
       adequate policies for managing software licenses. The Government Accountability
       Office (GAO) found that of the 24 major Federal agencies, 2 had comprehensive policies;
       18 had policies that were not comprehensive; and 4 had no policies. GAO found that the
       Department had established a policy requiring the Office of the Chief Information Officer
       to address centralized management through consolidation of software acquisition, volume
       purchasing arrangements and enterprise-wide agreements and to track and maintain its
       inventory of software licenses. However, the Department did not have a policy
       addressing analysis of license data to make informed investment decisions; education and
       training; establishing goals and objectives of the program; and managing licenses


Related Reports                                                                       Page 11
                                                                           APPENDIX 2
      throughout the entire lifecycle. In addition, the GAO found that Department licenses
      were primarily managed in a decentralized manner and that the Department did not
      analyze software license data to identify opportunities to reduce costs.




Related Reports                                                                      Page 12
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 13
                      APPENDIX 3




Management Comments        Page 14
                      APPENDIX 3




Management Comments        Page 15
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
